WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No.20-5049
Kevin L. Martin y, John Galipeau
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:

J Please enter my appearance as Counsel of Record for all respondents.

(There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if

your name has chan; since radi on
aaa ih
ar

Date: c ¥ 30 [2020
Aaron T. Craft

M@Mr (]Ms. Mrs. QC Miss
Office of the Attorney General

   

 

Signature

 

(Type or print) Name

Firm

 

Address_Indiana Government Center South, 302 W. Washington Street, Fifth Floor

City & State Indianapolis, IN Zip 46204

 

Phone 317-232-4774

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Kevin L. Martin DOC #169789
Westville Correctional Facility 5501 S. 1100 W.
Westville, IN 46391
